No. 20-989
In the

Supreme Court of the United States
CITY OF NEWARK, NEW JERSEY,
Petitioner,
v.
FRATERNAL ORDER OF POLICE,
NEWARK LODGE NO. 12,
Respondent.

On Petition for a Writ of Certiorari
to the Supreme Court of New Jersey

BRIEF IN OPPOSITION
Quintes D. Taglioli
Counsel of Record
Stephen C. Richman
Matthew D. A reman
Markowitz and Richman
123 South Broad Street, Suite 2020
Philadelphia, PA 19109
(215) 875-3100
qdtaglioli@markowitzandrichman.com
Counsel for Respondent
303296

A
(800) 274-3321 • (800) 359-6859

i
RESTATEMENT OF THE QUESTION
PRESENTED:
Should this Court grant certiorari where the Supreme
Court of New Jersey invalidated certain portions of
a municipal ordinance solely on the grounds that the
offending provisions conflict with state law and New
Jersey Attorney General guidelines governing police
internal affairs investigations?

ii
CORPORATE DISCLOSURE STATEMENT:
The Fraternal Order of Police, Newark Lodge No. 12
(“FOP”) is a public sector labor organization in the State
of New Jersey, and it has no parent company and no stock
of which a publicly held company might hold 10% or more.

iii
RESTATEMENT OF THE RELATED CASES:
The Petition filed by the City of Newark (“Newark”)
improperly includes United States v. City of Newark, Dkt.
No. 16-1731 (D.N.J.) as a related case. This District Court
case brought by the United States Department of Justice
against the City of Newark does not meet the definition of
“directly related” as set forth in SUP. CT. R. 14(1)(b)(iii)
inasmuch as it does not arise from the same trial court
case as the case for which certiorari is being sought in
this Court.

iv
TABLE OF CONTENTS
Page
R E S TAT EM EN T OF T H E QU E S T ION
PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
CORPORATE DISCLOSURE STATEMENT . . . . . . . ii
RESTATEMENT OF THE RELATED CASES . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . v
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RESTATEMENT OF THE CASE . . . . . . . . . . . . . . . . . 3
REASONS WHY THE PETITION SHOULD
BE DENIED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

v
TABLE OF CITED AUTHORITIES
Page
CASES
Black v. Cutter Labs,
351 U.S. 292 (1956)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Cardinale v. Louisiana,
394 U.S. 437 (1969)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
City of Newark v. Benjamin,
364 A.2d 563 (N.J. Ch. Div. 1976), aff’d,
365 A.2d 945 (N.J. App. Div. 1976), aff’d,
381 A.2d 793 (N.J. 1978) . . . . . . . . . . . . . . . . . . . . 2, 4, 5
Coleman v. Thompson,
501 U.S. 722 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Crossley v. New Orleans,
108 U.S. 105 (1883)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Endicott Johnson Corp. v.
Encyclopedia Press, Inc.,
266 U.S. 285 (1924) . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Fox Film Corp. v. Muller,
296 U.S. 207 (1935) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Fred v. Mayor & Mun. Council of Old Tappan,
92 A.2d 473 (N.J. 1952) . . . . . . . . . . . . . . . . . . . . . . . . 10

vi
Cited Authorities
Page
Hartford Life Ins. Co. v. Johnson,
249 U.S. 490 (1919)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Herb v. Pitcairn,
324 U.S. 117 (1945)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Michigan C. R. Co. v. Michigan S. R. Co.,
60 U.S. 378 (1857) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Monks v. New Jersey,
398 U.S. 71 (1970)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
N.Y. ex rel. Cohn v. Graves,
300 U.S. 308 (1937) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
O’Brien v. Skinner,
414 U.S. 1032 (1974) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Parker v. McLain,
237 U.S. 469 (1915)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Wagner v. Mayor & Mun. Council of Newark,
132 A.2d 794 (N.J. 1957) . . . . . . . . . . . . . . . . . . . . . . . 10
STATUTES AND OTHER AUTHORITIES
28 U.S.C. §1257 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 3
28 U.S.C. §1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 8

vii
Cited Authorities
Page
28 U.S.C. §2101(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 6, 7
N.J.S.A. §40:48-2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
N.J.S.A. §40:48-25 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
N.J.S.A. §40A:14-118 . . . . . . . . . . . . . . . . . . . . . . . . passim
N.J.S.A. §40A:14-181 . . . . . . . . . . . . . . . . . . . . . . 2, 4, 5, 11
Sup. Ct. R. 10  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Sup. Ct. R. 13.1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 6, 7

1
JURISDICTION:
The Petition filed by the City of Newark improperly
invokes this Court’s jurisdiction under 28 U.S.C. §1257.
The New Jersey Supreme Court considered the facts of the
underlying matter and invalidated portions of Newark’s
municipal Ordinance 6PSF-B exclusively under state
law. The adequate and independent state law grounds
for the New Jersey Supreme Court’s Opinion preclude
jurisdiction in this Court.
Moreover, the Petition filed on January 19, 2021
seeking review of the August 19, 2020 Opinion of the
New Jersey Supreme Court is untimely and should
be dismissed as having been filed outside the 150-day
jurisdictional timeframe provided for in SUP. CT. R. 13.1
and 28 U.S.C. §2101(c), as modified by the Court’s March
19, 2020 Miscellaneous Order.
INTRODUCTION:
Newark’s Ordinance 6PSF-B sought to establish a
Civilian Complaint Review Board (“CCRB”) with farreaching power to investigate complaints filed against
the Newark Police Department and/or its members, as
well as to serve in a policy and oversight role relative to
the overall operation of the Department. The New Jersey
Supreme Court upheld the portions of Ordinance 6PSF-B,
permitting the CCRB to investigate citizen complaints
alleging police misconduct and conduct its oversight
function, but determined that some of the investigatory
power the ordinance conferred upon the board conflicted
with existing state law.

2
Specifically, the New Jersey Supreme Court found
that the CCRB could not exercise its investigatory powers
when a concurrent investigation is being conducted by
the Newark Police Department’s internal affairs unit, as
internal affairs investigations are carefully regulated by
New Jersey law, which mandate that they must operate
under the statutory supervision of the police chief and
must otherwise comply with guidelines established by the
New Jersey Attorney General. See New Jersey Statutes
Annotated (“N.J.S.A.”) §§40A:14-118 and 181. The New
Jersey Supreme Court also invalidated the conferral of
subpoena power on the CCRB because such authority
could not be squared with New Jersey state statutes or
judicial precedent. See N.J.S.A. §40A:14-118; N.J.S.A.
§40:48-25; City of Newark v. Benjamin, 364 A.2d 563 (N.J.
Ch. Div. 1976), aff’d 365 A.2d 945 (N.J. App. Div. 1976),
aff’d 381 A.2d 793 (N.J. 1978). At its core, this matter
involves an interpretation and application of state law,
and raises no federal question. Because the New Jersey
Supreme Court relied exclusively upon independent and
adequate state law grounds when it invalidated portions
of Newark’s municipal Ordinance 6PSF-B, the Petition
must be denied.
Newark’s Petition should also be denied because it
asks this Court to address issues that were never raised by
Newark in the state court action and were not considered
or addressed by the New Jersey Supreme Court in its
disposition of the underlying litigation. The constitutional
principles of equal protection and separation of powers
set forth in the Petition were neither raised nor analyzed
in the New Jersey Supreme Court Opinion, or any of the
lower court decisions. Rather, the New Jersey Supreme
Court’s Opinion was solely driven by its review of the
FOP’s facial challenge and the parties’ arguments relative

3
to the scope of authority granted to municipalities by state
statute and state judicial precedent.
The Petition should further be denied because it
improperly seeks review based upon Newark’s contention
that Ordinance 6PSF-B in its original form is simply “good
public policy,” which similarly raises no federal question
upon which this Court may exercise jurisdiction under
SUP. CT. R. 10 or 28 U.S.C. §1257.
For all of these reasons, Newark’s Petition for
certiorari should be denied.
RESTATEMENT OF THE CASE:
On March 16, 2016, Newark enacted Ordinance
6PSF-B, which reshaped the administration of discipline
for police officers in the Newark Police Department. The
ordinance established the CCRB in the Office of the Mayor,
and vested the CCRB with the power to independently
investigate complaints made against individual police
officers and issue findings of fact that are binding on the
police department. Ordinance 6PSF-B also conferred upon
the CCRB the power to issue subpoenas and authorized the
CCRB to make determinations regarding the imposition
of discipline against police officers.
After an opportunity for limited discovery, the
Chancery Division of the Superior Court of New Jersey
for Essex County issued its March 19, 2018 Final Order
on cross-motions for summary judgment. The court
concluded that Ordinance 6PSF-B was ultra vires, void
and unenforceable except to the extent the ordinance
authorized the CCRB to serve strictly in an oversight
capacity. Pet. App C. The Chancery Court based its legal

4
conclusions on, inter alia, New Jersey Supreme Court
precedent involving the same defendant attempting this
same action several decades earlier and New Jersey
statutes regulating police discipline. See City of Newark
v. Benjamin, 364 A.2d 563 (N.J. Ch. Div. 1976); N.J.S.A.
§40A:14-118; N.J.S.A. §40A:14-181.
On appeal by Newark, the Appellate Division of the
New Jersey Superior Court embraced Newark’s policy
argument, reversing in part and affirming in part the
Chancery Court’s decision. In so doing, the Appellate
Division concluded that while the CCRB’s findings may
not be binding and the identity of complainants and police
officers must remain confidential, Ordinance 6PSF-B is
otherwise valid under New Jersey law. Thus, the Appellate
Division authorized the CCRB to move forward with
the issuance of subpoenas, the unfettered investigation
of individual police officers, and the recommendation of
discipline against individual officers.
On August 19, 2020 the New Jersey Supreme Court
issued its Opinion, affirming in part and reversing in part.
One of the earlier paragraphs in the majority Opinion
provides critical insight into the lens through which
Ordinance 6PSF-B was reviewed by the court:
“This challenge to Newark’s civilian oversight
entity must be considered in the context of the
landscape here in New Jersey. We conclude that
state law permits the creation by ordinance of
this civilian board with its overall beneficial
oversight purpose. Such boards must operate
consistently with current statutes, however.
To the extent some investigatory powers that
the City wishes to confer on its oversight board

5
conflict with existing state law, we are compelled
to modify the Appellate Division’s judgment…
The civilian review board’s powers must comply
with current legislative enactments unless
the Legislature refines the law to specifically
authorize certain functions that Newark
intends to confer on its review board.” Pet.
App. A, pg. 3.
In this context, the New Jersey Supreme Court
concluded that state statutes which govern the authority of
a police chief and the police internal affairs process in New
Jersey, respectively, preclude a concurrent investigation
by a CCRB while an internal affairs complaint on the
same matter is under review. See N.J.S.A. §40A:14-118 and
N.J.S.A. §40A:14-181. For concurrent investigations to be
permissible, the court concluded, state statutes would have
to be altered to clearly indicate how the two systems could
work compatibly or to indicate that the present insulating
features of the internal affairs investigatory process no
longer enjoy paramountcy. Pet. App. A, pp. 40-44.
The New Jersey Supreme Court also invalidated
the provision of Ordinance 6PSF-B which conferred
subpoena power upon the CCRB. Relying on state judicial
precedent set forth in City of Newark v. Benjamin, 381
A.2d 793 (N.J. 1978),1 the court concluded that there is
no inherent authority for Newark’s municipal council
to delegate subpoena power to a non-legislative body of
its creation under the existing statutory scheme, and
1. Contrary to the representation of Newark (Pet. at 4), it
was not a police union but rather the City of Newark itself that
successfully challenged the 1976 proposal to empower a civilian
review board with authority to issue subpoenas in Newark v.
Benjamin, 364 A.2d 563 (N.J. Ch. Div. 1976).

6
that any deviation from the statutory restrictions would
require affirmative action from the state legislature.
Pet. App. A, pp. 48-51. The court also rejected Newark’s
contention that the power to issue subpoenas could be
derived from N.J.S.A. §40A:14-118. In this regard, the
court determined that for Newark to confer subpoena
power to this municipally created civilian review board,
there needs to be clearly expressed evidence of such intent
by the state legislature, which simply does not exist under
the current statutory scheme. Pet. App. A, pp. 50-51.
The dissent, written by New Jersey Chief Justice
Rabner, similarly focuses on questions and analysis
of state law, rather than any federal question or
constitutional right. In particular, the dissent offers an
alternative to the majority’s view of N.J.S.A. §40A:14-118,
and the concomitant authority that might follow under that
alternative interpretation of the state statute.
On January 19, 2021, Newark filed its Petition
seeking review of the August 19, 2020 Opinion of the New
Jersey Supreme Court outside the 150-day jurisdictional
timeframe set forth in SUP. CT. R. 13.1 and 28 U.S.C.
§2101(c), as modified by the Court’s March 19, 2020
Miscellaneous Order. Newark’s Petition notably does not
contest the New Jersey Supreme Court’s interpretation
of state law, but instead, raises for the first time myriad
newly proffered constitutional questions not considered
below. Contrary to what one might conclude from
reading Newark’s Petition, this litigation never involved
a challenge by the City of the state statutory scheme
which Newark now suggests may infringe on its residents’
and its own purported constitutional rights. Rather, this
litigation involved a facial challenge by the FOP as to
whether Ordinance 6PSF-B exceeds Newark’s authority
under New Jersey law.

7
Concluding that certain aspects of Ordinance 6PSF-B
indeed went beyond Newark’s statutory authority, the New
Jersey Supreme Court struck a careful balance within the
confines of state law by discerning an important oversight
role for Newark’s CCRB. This Court is respectfully urged
to deny Newark’s Petition and leave that careful balance
undisturbed.
REASONS WHY THE PETITION
SHOULD BE DENIED:
In addition to the jurisdictional issue related to
the timing of Newark’s Petition, 2 the Petition should
be denied because: 1) the New Jersey Supreme Court
relied exclusively upon independent and adequate state
law grounds when it invalidated portions of Newark’s
municipal Ordinance 6PSF-B; 2) Newark asks this Court
to address issues that were never raised or considered in
the state court action; and 3) the Petition improperly seeks
review on the basis of “public policy.”
This Court’s jurisdiction does not reach state court
decisions resting exclusively – or even independently
– on state law grounds. 28 U.S.C. §1257(a); Coleman v.
Thompson, 501 U.S. 722, 729 (1991) (abrogated in part on
other grounds); Fox Film Corp. v. Muller, 296 U.S. 207,
210 (1935); Crossley v. New Orleans, 108 U.S. 105 (1883).
This Court must examine the precise grounds on which
the opinion is based without considering the broader
2. According to Newark’s Certificate of Service, the Petition
was filed electronically and placed in the mail on January 19,
2021, which is one hundred and fifty-three (153) days after the
New Jersey Supreme Court issued its August 19, 2020 Opinion,
thus exceeding the 150-day jurisdictional timeframe set forth in
SUP. CT. R. 13.1 and 28 U.S.C. §2101(c), as modified by the Court’s
March 19, 2020 Miscellaneous Order.

8
opinion. Black v. Cutter Labs, 351 U.S. 292 (1956). If
independent and adequate state grounds support a lower
court’s judgment, then exercising this Court’s federal
question analysis would render any decision on such a
mere advisory opinion. Herb v. Pitcairn, 324 U.S. 117, 126
(1945) (superannuated on other grounds).
In this case, explicitly absent from the New Jersey
Supreme Court Opinion is any discussion or analysis of a
federal question and/or a constitutional concern. On the
contrary, the New Jersey Supreme Court specifically
relied upon its review of state statute and jurisprudence
to determine that the creation by ordinance of a CCRB
is permissible, but that state law precludes the CCRB
from exercising investigatory powers when a concurrent
investigation is conducted by the Newark Police
Department’s internal affairs unit and further bars the
CCRB from exercising the power of subpoena.
The New Jersey Supreme Court’s interpretation of
state law, in this regard, is binding on this Court. O’Brien
v. Skinner, 414 U.S. 1032 (1974). Newark’s attempt to
raise a federal question by ignoring the underlying issues
directly addressed by the New Jersey Supreme Court
must be rejected as this Court lacks jurisdiction to review
an appeal where state law proved dispositive. 28 U.S.C.
§1257(a). Given the existence of exclusive, independent and
adequate state law grounds for the New Jersey Supreme
Court’s decision, Newark’s Petition should be denied.
The Petition’s second infirmity is that none of the
constitutional issues raised by Newark are in the record
as having been raised in the state court proceeding below.
Federal question(s) relied upon to confer jurisdiction in
the United States Supreme Court cannot first be raised

9
in a Petition for certiorari. Monks v. New Jersey, 398 U.S.
71 (1970)(Writ of certiorari will be dismissed where claim
advanced by petitioner’s attorney with respect to allegedly
unconstitutional application of state statute was raised
for first time upon certiorari, and state court had been
given no opportunity to pass upon it.); see also, Cardinale
v. Louisiana, 394 U.S. 437 (1969); N.Y. ex rel. Cohn v.
Graves, 300 U.S. 308, 317 (1937); Hartford Life Ins. Co.
v. Johnson, 249 U.S. 490 (1919); Parker v. McLain, 237
U.S. 469 (1915); Michigan C. R. Co. v. Michigan S. R. Co.,
60 U.S. 378 (1857)(Record must show, affirmatively or by
fair implication, that some federal question was involved
which was necessary to determination of cause). The
sound rationale for this type of judicial restraint is that
questions not raised below are those on which the record
is very likely to be inadequate, since it was not compiled
with those questions in mind. Cardinale, 394 U.S. at
438-439. Moreover, it is important that state courts be
given the first opportunity to consider the applicability
of state statutes in light of constitutional challenge, since
the statutes may be construed in a way which saves their
constitutionality. Id. The Cardinale Court reasoned that
even though states are not free to avoid constitutional
issues on inadequate state grounds, they should be given
the first opportunity to consider them. Id.
Reviewing the Petition alone, one might conclude
that the litigation below involved Newark’s challenge of
state statutory provisions which it felt prevented it from
protecting and/or upholding the constitutional rights of
its citizens or those purported to be reserved to itself. Of
course, this is not the posture of the state court proceeding,
which commenced as a facial challenge in the Chancery
Court asserting that Ordinance 6PSF-B contravened
state law and was decided on cross-motions for summary

10
judgment after limited discovery. The phrase “equal
protection” is not found in any of the underlying state court
decisions, and certainly there was no record developed
below which might shed light on Newark’s claims that
the CCRB, in its legally authorized form, along with the
many other legal reforms implemented by Newark and the
State of New Jersey relative to law enforcement, cannot
adequately protect the constitutional rights of its citizens.
The concept of “separation of powers” is discussed
tangentially in the New Jersey Supreme Court Opinion,
but only in the context of defining the mayor-council
form of government upon which the City of Newark is
founded, as well as in the context of the court’s analysis of
N.J.S.A. §40A:14-118, where the court concluded that the
state statute creates a distinction between the executive
power of an “appointing authority” and the administrative
power of a police chief. Pet. App. A, pp. 20, 27, 30.
Newark’s contention that the New Jersey Supreme Court
Opinion triggers a constitutional “separation of powers”
dilemma is mistaken (Pet. at 20), as Newark decries not
a conflict between two co-equal branches of state or local
government, but rather laments the traditional notion that
Newark’s municipal authority must bend to the powers
and authority of the State of New Jersey. See e.g., Wagner
v. Mayor & Mun. Council of Newark, 132 A.2d 794, 798
(N.J. 1957) (stating that “[i]t is fundamental in our law that
there is no inherent right of local self-government beyond
the control of the state”); Fred v. Mayor & Mun. Council
of Old Tappan, 92 A.2d 473, 474-475 (N.J. 1952) (explaining
that municipal power in New Jersey is statutory in origin).
Even Newark’s reference to the “necessary and
proper” police power of a public entity was analyzed by
the New Jersey Supreme Court not under the rubric of

11
the United States Constitution and federal jurisprudence,
but rather under New Jersey statute N.J.S.A. §40:48-2.
Pet. App. A, pg. 20-24. This statutory provision, which is
admittedly modeled after the federal principle, provides:
“a municipality may make, amend, repeal and
enforce such other ordinances, regulations,
rules and by-laws not contrary to the laws of
this state or of the United States, as it may deem
necessary and proper for the good government,
order and protection of persons and property,
and for the preservation of the public health,
safety and welfare of the municipality and its
inhabitants…” Id.
The New Jersey Supreme Court concluded that CCRB
investigations and the conferral of subpoena power upon
the CCRB was neither necessary nor proper because they
expressly conflict with the legislative mandate of N.J.S.A.
§40A:14-118 and N.J.S.A. §40A:14-181. Pet. App. A, pp. 3738. Specifically, the New Jersey Supreme Court analyzed
the final paragraph of N.J.S.A. §40A:14-118 to preserve
the governing body’s authority to appoint committees “to
conduct investigations of the operation of the police force,”
but refused to conflate that authority with the following
sentence, thus dismissing the notion that such authority
could be aggregated to the CCRB. As such, relying on
both the language and the history of the statute, the court
determined that a CCRB was barred from performing
certain investigative responsibilities provided for under
N.J.S.A. §40A:14-118. Pet. App. A, pp. 24-32. The court
further explained that there is no inherent authority under
state law for Newark’s municipal council to delegate its
subpoena power to a non-legislative body of its creation,
because the council’s subpoena power is limited to its

12
power to legislate, which can only be delegated to a
subcommittee of its own members in furtherance of
a proper legislative purpose. Pet. App. A, pp. 48-49.
Flowing from that analysis, the New Jersey Supreme
Court rejected Newark’s state law “necessary and proper”
argument, again relying upon the first sentence of the last
paragraph in N.J.S.A. §40A:14-118, which stops far short
of supporting the notion that a municipality has the power
to confer subpoena power on a public-member commission
it chooses to create. Pet. App. A, pp. 49-51. 3
Finally, Newark argues that this Court should grant
the Petition because “public policy” warrants review. Pet.
at 24. The “public policy” of New Jersey is governed by
the executive, legislative and judicial branches of the New
Jersey state government, and a question as to whether
a New Jersey statute meets a standard for good “public
policy” does not present federal question reviewable by
this Court. Endicott Johnson Corp. v. Encyclopedia
Press, Inc., 266 U.S. 285 (1924). If the time has come in
New Jersey for N.J.S.A. §40A:14-118 to be modified to
permit civilian entities to displace the duties of a police
chief and conduct disciplinary investigations of individual
police officers, then that is something that must be done
by the legislature, rather than by judicial fiat. If the will
of the electorate in New Jersey is to allow civilians to
engage in police functions, the legislature has the power
to effectuate that change. And if the New Jersey statutory
3. Newark’s suggestion that the Consent Decree it entered
into with the United States Department of Justice supports the
establishment of a CCRB as set forth in Ordinance 6PSF-B ignores
Newark’s own position in the underlying proceedings that the
CCRB envisioned by the ordinance was not created for the consent
decree and admittedly exceeds that which is provided for in the
consent decree. Pet. App. C, pp. 78, 144-145.

13
scheme governing the power of subpoena is to be upended,
that it is similarly the responsibility of the legislature,
rather than this Court, to do so.4
As this litigation raises no federal question, and the
ruling of the New Jersey Supreme Court is exclusively
and independently based upon interpretation of state law,
further review by this Court is unwarranted.
CONCLUSION:
For the foregoing reasons, this Court should deny the
City of Newark’s Petition.
Respectfully submitted,
Quintes D. Taglioli
Counsel of Record
Stephen C. Richman
Matthew D. A reman
Markowitz and Richman
123 South Broad Street, Suite 2020
Philadelphia, PA 19109
(215) 875-3100
qdtaglioli@markowitzandrichman.com
Counsel for Respondent

4. The New Jersey legislature is currently considering
legislation to specifically allow municipal governments to establish
Civilian Review Boards with subpoena power (NJ Assembly Bill
A4656, February 20, 2021).

